Audit Report




OIG-13-036
TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA
IT Modernization Program Met Milestones with Schedule
Extensions
March 28, 2013




Office of
Inspector General
Department of the Treasury
This Page Intentionally Left Blank.
Contents

Audit Report

  Results in Brief ............................................................................................ 3

  Findings ..................................................................................................... 5

      Major Milestones for BSA IT Mod Continued to Be Met and the Program
      Was Within Budgeted Costs ..................................................................... 5

      BSA IT Mod Project Performance Testing Was Mostly Successful ................. 11

      Oversight of BSA IT Mod Continued ......................................................... 14

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ......................................              18
  Appendix     2:      Corrective Actions to Prior Audit Recommendations..................                    21
  Appendix     3:      Additional Background Information on BSA IT Mod ...................                    22
  Appendix     4:      Management Response .........................................................          27
  Appendix     5:      Major Contributors to this Report ............................................         29
  Appendix     6:      Report Distribution ................................................................   30

Abbreviations

  BCR                  baseline change request
  BSA                  Bank Secrecy Act
  BSA Direct           BSA Direct Retrieval and Sharing
  BSA IT Mod           BSA Information Technology Modernization Program
  CIO                  Chief Information Officer
  EVM                  earned value management
  FinCEN               Financial Crimes Enforcement Network
  H. Rept.             House Report
  IRS                  Internal Revenue Service
  IT                   Information Technology
  MITRE                MITRE Corporation
  OCIO                 Office of the Chief Information Officer
  OIG                  Office of Inspector General
  PMO                  Project Management Office
  SOR                  system of record
  TEOAF                Treasury Executive Office of Asset Forfeiture
  WebCBRS              Web-based Currency and Banking Retrieval System

                       FinCEN’s BSA IT Modernization Program Met Milestones with                           Page i
                       Schedule Extensions (OIG-13-036)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                       March 28, 2013

                       Jennifer Shasky Calvery, Director
                       Financial Crimes Enforcement Network

                       Robyn East, Chief Information Officer
                       Department of the Treasury

                       The Financial Crimes Enforcement Network (FinCEN)
                       administers the Bank Secrecy Act (BSA), which established
                       the framework to combat criminal use of the financial
                       system. BSA requires financial institutions to report certain
                       financial transactions made by their customers. FinCEN
                       oversees the management, processing, storage, and
                       dissemination of BSA data.

                       In November 2006, FinCEN began a system development
                       effort, the BSA Information Technology Modernization
                       Program (BSA IT Mod), to improve the collection, analysis,
                       and sharing of BSA data. The intent of the system was,
                       among other things, to transition BSA data from the Internal
                       Revenue Service (IRS) to FinCEN. BSA IT Mod is estimated
                       to cost $120 million and is to be completed in 2014.

                       Pursuant to a Congressional directive, we conducted the
                       third in a series of audits of FinCEN’s BSA IT Mod. 1
                       Consistent with the Congressional directive, the objectives
                       of the audit were to determine if FinCEN is (1) meeting cost,
                       schedule, and performance benchmarks for the program and

1
 House Report (H. Rept.) 112-331 directed our office to report on BSA IT Mod, including
contractor oversight and progress regarding budget and schedule, semiannually. Our first report
under this requirement was due March 31, 2012, and was issued on March 26, 2012.


                       FinCEN’s BSA IT Modernization Program Met Milestones with                  Page 1
                       Schedule Extensions (OIG-13-036)
                       (2) providing appropriate oversight of contractors. We also
                       assessed Treasury’s Office of the Chief Information Officer
                       (Treasury OCIO) oversight of the program. The period
                       covered by this audit was June 2012 through December
                       2012. We interviewed FinCEN program officials, Treasury
                       OCIO officials, and representatives from IRS involved with
                       the program. We interviewed representatives from Deloitte
                       Consulting, LLP (Deloitte) and MITRE Corporation (MITRE),
                       the contractors involved with the program. 2 We also
                       reviewed applicable program documentation. We performed
                       our fieldwork from October 2012 through February 2013.
                       Appendix 1 provides a more detailed description of our audit
                       objectives, scope, and methodology.

                       In September 2012, we reported on FinCEN’s BSA IT Mod
                       as of May 2012. 3 We found that the program was on
                       schedule and within budgeted cost. Development of the
                       program met all major scheduled milestones, though the
                       planned completion dates for certain projects were extended.
                       During that time, FinCEN also became the authoritative

2
  FinCEN contracted with Deloitte to oversee the systems development and integration effort.
Deloitte is the prime contractor in the BSA IT Mod effort. MITRE is a not-for-profit organization
chartered to work in the public interest with expertise in systems engineering, information
technology, operational concepts, and enterprise modernization. FinCEN engaged MITRE as a
subject matter expert on program and project management and BSA IT Mod business
capabilities.
3
  Treasury Office of Inspector General (OIG), FinCEN’s BSA IT Modernization Program Is Meeting
Milestones, But Oversight Remains Crucial (OIG-12-077; Sep. 27, 2012). This September 2012
report was our second report on the BSA IT Mod program. Our first report was titled Terrorist
Financing/Money Laundering: FinCEN’s BSA IT Modernization Program Is on Schedule and
Within Cost, But Requires Continued Attention to Ensure Successful Completion (OIG-12-047;
Mar. 26, 2012). As discussed in that first report, we found that as of May 2011, BSA IT Mod
was generally within scheduled milestones though certain projects had been delayed by more
than the 10 percent of schedule. We also concluded that FinCEN prepared a credible business
case before beginning development of BSA IT Mod but did not report $11.2 million of planning
costs. We did report on two matters of concern. As one concern, the successful and timely
completion of BSA IT Mod was, in part, dependent on the successful completion of the system
of record (SOR). The SOR was the information storage system for BSA data. FinCEN had at the
time of our first audit extended the SOR’s completion date because of complexities encountered
during its development. As a second concern, we reported that certain IRS users had expressed
concerns over the potential impact to their operations as they transitioned from being a supplier
of BSA data to being a receiver of BSA data. As of our second audit, we found that these two
concerns had been addressed as discussed further in Appendix 2.


                       FinCEN’s BSA IT Modernization Program Met Milestones with                    Page 2
                       Schedule Extensions (OIG-13-036)
               source for BSA data when it transitioned the collection,
               processing, and storage of all BSA data from IRS in January
               2012. Additionally, FinCEN had tested the performance of
               BSA IT Mod projects completed as of our review, and
               resolved a number of significant issues that had been
               identified. We also reported that Treasury OCIO’s monitoring
               of the program continued, primarily through review of
               FinCEN-prepared documentation of program progress. We
               did note, however, that FinCEN’s Project Management Office
               (PMO) discontinued its previous practice of providing
               assessments of the program, instead focusing on providing
               technical assistance for BSA IT Mod’s configuration
               management. At the time, we concluded that there was no
               adverse impact from this change in focus. We did, however,
               caution in our report that risks remained to the BSA IT Mod,
               including the interdependency between the component
               projects. This risk, among others, continues.


Results in Brief
               As of December 2012, we found that BSA IT Mod program
               was proceeding mostly on schedule and within budgeted
               cost. Program development met all major milestones
               including those for updating the SOR and the release of
               FinCEN Query, but the planned completion dates for certain
               projects were extended when project staffing resources were
               re-allocated to resolve data quality issues. Additionally,
               although the program as a whole was within budget, the
               costs for some discrete projects exceeded initial budgeted
               amounts.

               FinCEN tested the performance of BSA IT Mod projects
               completed as of our review, and resolved significant issues
               identified during testing. However, during the audit, FinCEN
               users began experiencing performance issues with the
               FinCEN Query tool, including searches yielding incomplete
               data. FinCEN attributed this problem to the search engine
               software and was working to resolve it at the completion of




               FinCEN’s BSA IT Modernization Program Met Milestones with      Page 3
               Schedule Extensions (OIG-13-036)
                      our fieldwork. 4 We will follow-up on this issue during our
                      next 6-month assessment.

                      While FinCEN met all major milestones, risks remain to the
                      program. One risk is the interdependency between the
                      component projects. Future enhancements and modifications
                      made to one component could affect others. Another risk
                      concerns differences among users’ needs and how FinCEN
                      must consider, prioritize, and accommodate those needs.
                      Some users also reported that BSA IT Mod features are
                      challenging (difficult to use). We will continue in our future
                      audits to assess FinCEN’s efforts in meeting these BSA IT
                      Mod challenges.

                      With respect to FinCEN’s oversight of BSA IT Mod, program
                      management officials continued to provide technical
                      assistance on BSA IT Mod configuration management as this
                      was considered more important to the program’s success
                      than was conducting independent assessments. We found
                      Treasury OCIO’s monitoring of the program continued to be
                      primarily focused on reviews of FinCEN-prepared program
                      documentation. Given the overall positive track record by
                      FinCEN to date in managing the BSA IT Mod development
                      effort, we consider Treasury OCIO’s monitoring appropriate.

                      This audit, our third in a series, did not identify the need to
                      make any new recommendations to FinCEN.

                      For this report, we requested and received management
                      response from FinCEN’s Director and Treasury’s Chief
                      Information Officer. In her response, FinCEN’s Director
                      observed that the risks identified in our report are inherent in
                      major IT investment efforts and that FinCEN would continue
                      to employ rigorous program management, and engage and
                      collaborate with stakeholders. Additionally, she noted that
                      the performance issue experienced with FinCEN Query
                      during our audit had been resolved. Treasury’s Chief
                      Information Officer provided a response of no comment on

4
 FinCEN Query is the new search application that allows users to query BSA data broadly
across many fields.


                      FinCEN’s BSA IT Modernization Program Met Milestones with           Page 4
                      Schedule Extensions (OIG-13-036)
                          the report. Both management responses can be found in
                          appendix 4.

Finding 1                 Major Milestones for BSA IT Mod Continued to Be
                          Met and the Program Was Within Budgeted Costs

                          As of December 2012, we found that BSA IT Mod program
                          was proceeding mostly on schedule and within budgeted
                          costs. Program development met all major milestones
                          including those for updating the SOR and the release of
                          FinCEN Query, but the planned completion dates for certain
                          projects were extended when project staffing resources were
                          re-allocated to resolve data quality issues. Additionally,
                          although the program as a whole is within budget, the costs
                          for some projects exceeded initial budgeted amounts.

                          Figure 1 provides a timeline of significant events in the BSA
                          IT Mod program.

Figure 1. Timeline of Significant Events in FinCEN’s BSA System Modernization Efforts

                      January 2007 –
                     December 2009                                             January 2012               April 2014
   July 2006       FinCEN developed IT                May 2010           FinCEN transitioned the           Planned
     FinCEN        governance process,                Design and          collection, processing,           system
   terminated      stakeholders’ needs,              development         and storage of all BSA          development
  BSA Direct*       and business case                phase started             data from IRS              completion


2006        2007           2008       2009           2010         2011          2012          2013         2014


     November 2006                 January 2009             June 2011         November 2012            April 2013
  FinCEN established IT                Program                FinCEN              FinCEN             Planned release
  modernization, vision             initiation and           realigned         completed roll             of last
   and strategy and set            planning phase            costs and         out of FinCEN         scheduled BSA
      modernization                of BSA IT Mod              adjusts         Query to 7,500             IT Mod
        foundation                      started              schedule              users               component


Source: OIG review of FinCEN data.
*FinCEN terminated BSA Direct Retrieval and Sharing (BSA Direct) after concluding the project had no
guarantee of success. We reviewed that failure and found that FinCEN poorly managed the predecessor
project, insufficiently defined functional and user requirements, misjudged project complexity, and
established an unrealistic completion date. We also found that the Treasury OCIO did not actively oversee
the project, as required by the Clinger-Cohen Act of 1996. Treasury Office of Inspector General (OIG),
The Failed and Costly BSA Direct R&S System Development Effort Provides Important Lessons for
FinCEN’s BSA Modernization Program (OIG-11-057: Jan. 5, 2011).


                          FinCEN’s BSA IT Modernization Program Met Milestones with                            Page 5
                          Schedule Extensions (OIG-13-036)
                    Project Dates Were Extended to Address Data Quality Issues

                    As of December 31, 2012, FinCEN met all major milestones,
                    but the planned completion dates for certain projects were
                    extended. FinCEN program management officials told us that
                    FinCEN and its contractor, Deloitte, reallocated project
                    staffing resources to resolve data quality issues in the SOR
                    to support the deployment of FinCEN Query. Table 1
                    displays the status of BSA IT Mod by project. Appendix 3
                    provides descriptions for the various projects.

Table 1: BSA IT Mod Project Schedule Status as of December 31, 2012
                                                                      Actual or
                                                                      Planned
                              Planned             Revised Planned     Completion   Project
                              Completion          Completion          Date at      Status at
                              Date at May         Date at June        December     December
Project                       20101               20112               20123        2012
SOR
      Release 1               9/30/2011           12/1/2011           12/15/2011   Complete
      Release 2               6/30/2012           7/1/2012            10/16/2012   Complete
Shared Filing Services
      Release 1               9/30/2011           12/1/2011           12/15/2011   Complete
      Release 2               6/30/2012           7/1/2012            10/16/2012   Complete
Third Party Data
      Release 1               9/30/2011           12/1/2011           12/15/2011   Complete
      Release 2               6/30/2012           7/1/2012            10/16/2012   Complete
Data Conversion               12/31/2011          1/1/2012            1/6/2012     Complete
E-Filing
      Release 1               6/30/2011           7/1/2011            7/1/2011     Complete
      Release 2               10/31/2011          7/1/2012            7/31/2012    Complete
FinCEN Query7
      Release 1               2/28/2012           6/1/2012            7/20/2012    Complete
      Release 2               9/30/2012           10/1/2012           11/16/2012   Complete
Advanced Analytics
      Release 1               10/31/2010          10/31/2010          10/31/2010   Complete
      Release 2               4/30/2011           4/30/2011           4/30/2011    Complete
      Release 3               7/31/2012           9/1/2012            8/1/2012     Complete
      SCIF4                   n/a                 12/1/2012           11/9/2012    Complete
Register User Portal          3/31/2011           3/31/2011           3/31/2011    Complete
Identity/Access
Control Management            3/31/2011           3/31/2011           3/31/2011    Complete
Broker Information Exchange
     314A,B Release 1         5/31/2011          5/31/2011           5/31/2011     Complete
     314A,B Release 2         12/31/2012         4/1/2013            4/1/20136     Ongoing
Alerts                        9/30/2012          1/1/2013            1/1/20136     Ongoing



                    FinCEN’s BSA IT Modernization Program Met Milestones with              Page 6
                    Schedule Extensions (OIG-13-036)
    Table 1: BSA IT Mod Project Schedule Status as of December 31, 2012
                                                                                Actual or
                                                                                Planned
                                      Planned              Revised Planned      Completion         Project
                                      Completion           Completion           Date at            Status at
                                      Date at May          Date at June         December           December
    Project                           20101                20112                20123              2012
    Bulk Data Dissemination
         Release 1                    9/30/2011            3/1/2012             4/17/2012          Complete
         Release 2                    6/30/2012            7/1/2012             10/16/2012         Complete
    Infrastructure & Portal
    Security Develop and Test         9/30/2010            9/30/2010            9/30/2010          Complete
         Release 1                    3/31/2011            3/31/2011            3/31/2011          Complete
         Release 2                    9/30/2011            9/30/2011            9/30/2011          Complete
         Release 3                    6/30/2012            n/a5                 n/a5               n/a5
    Source: OIG analysis of FinCEN documentation.
    1
      The dates displayed were the initial planned completion dates when in May 2010, FinCEN began the design
    and development of projects after receiving Office of Management and Budget approval.
    2
      FinCEN submitted a baseline change request (BCR) to the Treasury CIO to adjust selected project milestone
    schedule dates and realign costs to keep the overall program on track. The baseline change was implemented
    in June 2011. See appendix 3 for additional information regarding the BCR.
    3
       Dates represent the actual completion dates if the project was completed, or the planned completion date
    as of the cutoff date of our review (December 31, 2012).
    4
       A sensitive compartmented information facility (SCIF) has formal access controls and is used to hold
    information concerning or derived from intelligence sources, methods, or analytical processes. FinCEN plans
    to provide its SCIF with advanced analytics capability, which was not part of the May 2010 initial plan but
     was part of the June 2011 BCR.
    5
       Not applicable - The work planned for Infrastructure release 3 was removed from the project and will be
    done as part of BSA IT Mod’s on-going operations and maintenance.
    6
       We plan to determine the status and report on the milestone in our next semiannual report pursuant to
    H. Rept. 112-331.
    7
      As discussed in Finding 2, FinCEN users began experiencing performance issues with release 2 of FinCEN
    Query, including searches yielding incomplete data. FinCEN attributed this problem to the search engine
    software.


                           Since becoming the authoritative source for BSA data in
                           January 2012, FinCEN continued to identify and resolve data
                           quality issues involving the SOR as additional features were
                           added to BSA IT Mod, such as address validation, the
                           release of new BSA forms, and FinCEN Query. 5


5
  As part of its BSA IT Mod effort, FinCEN consolidated each of the various financial institution
currency transaction reports and suspicious activity reports into a single set of forms, and
increased the data captured on the forms. These new forms along with forms for the
registration of money services business and designation of exempted person were released in
March 2012. Electronic filing of the new currency transaction report and suspicious activity
report forms through FinCEN’s BSA E-Filing web portal is mandated by April 1, 2013.


                           FinCEN’s BSA IT Modernization Program Met Milestones with                         Page 7
                           Schedule Extensions (OIG-13-036)
                      FinCEN Query releases 1 and 2 were completed 7 weeks
                      beyond their planned completion dates. FinCEN’s BSA IT
                      Mod program management officials told us that the schedule
                      delay for release 1 resulted from changes made to the SOR
                      that, in turn, required programing changes to FinCEN Query.
                      The delays to FinCEN Query release 1 resulted in an increase
                      of approximately $460,000, or 6 percent, over budgeted
                      costs. The increase is primarily attributed to the need for
                      additional performance testing. FinCEN Query release 2 was
                      delayed because of the time needed to incorporate a law
                      enforcement requested enhancement to simplify the search
                      tool. This project enhancement was a change in scope from
                      the original plan and may result in an increase to the final
                      program cost.

                      The dates for release 2 of the SOR, Third-Party Data, Shared
                      Filing Services, and Bulk Data Dissemination were also
                      extended by 15 weeks beyond their planned completion
                      dates and costs increased approximately $350,000, or 17
                      percent, over that which were budgeted.

                      E-Filing release 2 was completed 4 weeks beyond its
                      planned completion date because of the delay in awarding
                      the contract and the need to relocate contractor staff to
                      FinCEN. 6

                      BSA IT Mod’s next major and final milestone is the
                      completion of the Broker Information Exchange project,
                      which includes the Financial Intelligence Repository. Initially
                      scheduled to be completed by April 2013, FinCEN program
                      management officials told us in March 2013 that they had
                      submitted a BCR to break Broker Information Exchange,
                      Release 2, into two separate releases – the first planned for
                      August 2013 and the second planned for April 2014.




6
 The majority of the contract services work is being performed by Deloitte. Northrop Grumman
was contracted for E-Filing.


                      FinCEN’s BSA IT Modernization Program Met Milestones with                Page 8
                      Schedule Extensions (OIG-13-036)
BSA IT Mod Remained Within Budgeted Costs

As of December 31, 2012, FinCEN reported that it had spent
approximately $83 million developing BSA IT Mod from its
overall $120 million, 4-year plan. Not included in this amount
was approximately $11.2 million in program planning costs,
which we addressed in our March 2012 report. In that
regard, FinCEN’s actual program costs incurred through
December 2012 were approximately $94.2 million. A
breakdown by category of the actual costs incurred is
provided in Table 2 below.

 Table 2: BSA IT Mod Costs as of December 31, 2012 (in millions)
 Category                                                        Amount
 Initial Planning                                                 $11.2
 Development
     Hardware and Software                                          10.3
     Contractor Services                                            40.6
     Other1                                                         13.2
     Operations and Maintenance2                                    13.7
 FinCEN staffing costs3                                              5.2
    Total                                                          $94.2
 Source: OIG analysis of FinCEN data.
 1
   Other costs are comprised of (1) program management and program
 engineering performed by Deloitte and MITRE, (2) a contract office fee of
 4 percent for the Department of the Interior’s National Business Center
 Acquisition Services Directorate for support of the BSA IT Modernization
 Program, and (3) a management reserve for potential additional work to
 be performed within the authorized work scope of the contract or to
 accommodate rate changes for future work.
 2
   Operations and Maintenance costs are comprised of hosting costs by
 the Treasury’s Bureau of the Public Debt, hardware and software
 maintenance support, network support, application support, and the
 application help desk costs. Effective October 2012, the Bureau of Public
 Debt and Treasury’s Financial Management Service were reorganized as
 the Bureau of Fiscal Service.
 3
   Staffing costs are estimated based on FinCEN’s Exhibit 300
 submissions to OMB. FinCEN does not track the staffing costs associated
 with BSA IT Mod.


FinCEN funded BSA IT Mod through $119.9 million received
from its annual congressional appropriations and
supplemental funding from the Treasury Forfeiture Fund
administered by the Treasury Executive Office of Asset
Forfeiture (TEOAF). TEOAF provided funding for the BSA IT
Mod Program consistent with its authority to provide funds


FinCEN’s BSA IT Modernization Program Met Milestones with                    Page 9
Schedule Extensions (OIG-13-036)
                      for law enforcement-related expenditures. 7 Table 3 below
                      identifies the program’s funding sources by year.

                       Table 3: BSA IT Mod Funding Sources as of December 31, 2012
                       (in millions)
                                                                       Treasury
                                         Congressional                Forfeiture
                       Fiscal Year       Appropriation                     Fund            Total
                       2009                      $2.5                     $3.7             $6.2
                       2010                      18.5                     11.7             30.2
                       2011                      18.5                     11.5             30.0
                       2012                      23.5                       6.5            30.0
                       20131                     23.5                       0.0            23.5
                         Total                  $86.5                    $33.4           $119.9
                       Source: OIG analysis of FinCEN and TEOAF documentation.
                       1
                         The federal government is operating under a continuing appropriation
                       resolution (Pub. L. No. 112-175) through March 2013 at a .6 percent
                       increase over fiscal year 2012 levels.




7
  The Treasury Forfeiture Fund, which is the receipt account for the deposit of non-tax
forfeitures made as a result of law enforcement actions by participating Treasury and
Department of Homeland Security agencies. The Treasury Forfeiture Fund is established under
31 U.S.C. § 9703. The Fund can provide money to other federal entities to accomplish specific
objectives for which the recipient entities are authorized to spend money and toward other
authorized expenses. Distributions from this Fund in excess of $500,000 cannot be used until
the Appropriations Committees from both houses of Congress are notified. TEOAF submits its
planned release of funds to Congress annually. Those submissions through fiscal year 2012
included the funding provided for the BSA IT Mod program.


                      FinCEN’s BSA IT Modernization Program Met Milestones with                    Page 10
                      Schedule Extensions (OIG-13-036)
Finding 2              BSA IT Mod Project Performance Testing Was
                       Mostly Successful

                       FinCEN tested the performance of BSA IT Mod projects
                       completed during the current audit period using government
                       acceptance testing (GAT) 8 and resolved all significant issues
                       that were identified through that testing. FinCEN has
                       experienced some performance issues with FinCEN Query
                       after its deployment.

                       Table 4 below identifies testing conducted during our audit
                       period.

    Table 4: BSA IT Mod Project Testing Status as of January 17, 2013
                                              Completion         Total        Closed        Open
    Project                                   Date of Testing    Defects1     Defects       Defects
    System of Record/
    Shared Filing Services/
    Third Party Data
           Release 1                          12/14/2011         862          862           0
           Release 22                         10/12/2012         220          219           1
    Data Conversion                           12/14/2011         544          544           0
    E-Filing
           Release 1                          6/7/2011           7            7             0
           Release 2                          7/27/2012          466          414           52
    FinCEN Query
           Release 1                          6/13/2012          922          870           52
           Release 2                          11/15/2012         36           28            8
    Advanced Analytics
           Release 1                          10/18/2010         70           70            03
           Release 2                          4/14/2011          50           50            03
           Release 3                          7/12/2012          42           34            8
           SCIF                               9/7/2012           18           12            6
    Register User Portal, Identity/Access
    Control Management                        3/22/2011          33           33            04
    Broker Information Exchange
           314A Release 1                     5/26/2011          23           23            0
           314A&B Release 2                   Not Started        N/A          N/A           N/A


8
  GAT is the government’s opportunity to validate that the current release’s requirements were
met. This includes testing functionality, system usability, permissions and security, compatibility
testing, and traceability to business requirements through test script execution, demonstrations
and inspections. Performance and response time are also observed.




                       FinCEN’s BSA IT Modernization Program Met Milestones with                      Page 11
                       Schedule Extensions (OIG-13-036)
Table 4: BSA IT Mod Project Testing Status as of January 17, 2013
                                              Completion           Total         Closed          Open
Project                                       Date of Testing      Defects1      Defects         Defects
Alerts
       Release 1                              11/20/2012           8             6               2
Bulk Data Dissemination
       Release 1                              N/A5                 N/A           N/A             N/A
       Release 2                              9/28/2012            417           417             0
Source: OIG analysis of FinCEN data.
1
  A defect is defined as a test result that does not match the expected result. Defects are also referred to as
issues, problems, or incidents.
2
  Third-Party Data release 2 GAT was completed on September 28, 2012.
3
  According to FinCEN’s Chief Technology Officer, open defects under Advanced Analytics releases 1 and
release 2 were closed when the releases were replaced with the release 3.
4
  FinCEN deployed the Register User Portal, Identity/Access Control Management without addressing the 9
remaining defects, which it closed. According to FinCEN officials, it plans to address the defects during the
operations and maintenance phase.
5
  Bulk Dissemination release 1 did not undergo GAT. FinCEN provided users with a sample of bulk data files
to test and validate.



                    Since our September 2012 report, the number of defects
                    increased for release 1 of the SOR, Shared Filing Services,
                    and Third-Party Data. The increase in defects was due to
                    FinCEN identifying data quality issues as additional features
                    were added to BSA IT Mod, such as address validation, the
                    release of new BSA forms, and FinCEN Query. The number
                    of FinCEN Query release 1 defects increased in part because
                    of a law enforcement requested enhancement to simplify the
                    FinCEN Query search process.

                    Similar to what we were told in our prior audit, FinCEN
                    program management officials stated that issues identified
                    during testing considered severe enough to adversely impact
                    BSA IT Mod were resolved prior to projects being deployed.
                    FinCEN and MITRE considered all remaining open defects to
                    be low severity, meaning that the defects would not
                    significantly impair program performance or functionality. As
                    BSA IT Mod is transitioned from the project development
                    phase to the deployment phase, FinCEN plans to prioritize
                    open defects and address them as program enhancements in
                    the operations and maintenance phase. So far, FinCEN has
                    used approximately $4 million from its operations and
                    maintenance budget to resolve defects and requests for
                    changes in the support of deployed projects.

                    FinCEN’s BSA IT Modernization Program Met Milestones with                            Page 12
                    Schedule Extensions (OIG-13-036)
FinCEN Query Issues Remain

FinCEN program management officials and representatives
from MITRE, IRS, and Deloitte told us that BSA IT Mod was
performing well and meeting the needs of the users. In this
regard, FinCEN and MITRE said there were some data quality
issues, but that the types of issues experienced were issues
normally encountered when developing a major IT program
such as BSA IT Mod. FinCEN was working to resolve the
issues with the users.

FinCEN Query was released to FinCEN internal users in July
2012 and to other federal and state users from September
through November 2012. By the end of December 2012,
approximately 7,500 users had access to FinCEN Query, and
of those, approximately 4,500 users had actually accessed
it. The average query response time was about 1 second.

During this audit, our third one of the series, FinCEN Query
was experiencing continued service interruptions—in other
words, it was periodically “crashing.” To resolve this,
FinCEN program management officials told us that, among
other things, they updated the software, added hardware
capacity, and continued to work with the software vendor.
To improve performance, FinCEN increased the number of
FinCEN Query servers and made multiple software upgrades.
While we found that FinCEN was actively working this issue,
we will continue to monitor the performance of FinCEN
Query in our future audits of BSA IT Mod.

Risks to BSA IT Mod’s Successful Completion Remain

Similar to what we reported in our September 2012 report, a
continued risk was the program’s high-level of dependency
between its component projects. Programming changes to
one project, such as the SOR, required programming
changes to other projects. This risk will continue as the
remaining BSA IT Mod projects are released and
enhancements are made during the program’s operations and
maintenance phase.


FinCEN’s BSA IT Modernization Program Met Milestones with      Page 13
Schedule Extensions (OIG-13-036)
                      Another risk concerns how users have different needs that
                      FinCEN must consider, prioritize, and accommodate. For
                      example, FinCEN addressed a law enforcement requested
                      enhancement to simplify the FinCEN Query search process.
                      In addition, FinCEN told us that some users found BSA IT
                      Mod features challenging to use, such as the Advanced
                      Analytics tool. To address this, FinCEN has provided users
                      with support and training. FinCEN will need to continue this
                      support going forward. We will continue to monitor this area.

                      We also note that FinCEN has proposed a reorganization. To
                      that end, it has briefed its Congressional oversight
                      committees as well as our office about its reorganization
                      plan. As the reorganization plan evolves, we will assess its
                      impact to the BSA IT Mod program in our future work.

Finding 3             Oversight of BSA IT Mod Continued

                      In our September 2012 report, we reported that FinCEN
                      maintained oversight of BSA IT Mod, and that Treasury
                      OCIO’s oversight was primarily accomplished through a
                      review of FinCEN-prepared program documentation. We also
                      found that FinCEN’s PMO reduced its independent oversight;
                      however, we concluded this change had no adverse impact
                      on the program. The level of oversight noted in our last
                      report continued during the period covered by this audit.

                      FinCEN Oversight

                      Deloitte provided FinCEN, as it had done in the past, with
                      monthly BSA IT Mod program management reviews focused
                      on the program status using earned value management
                      (EVM) and provided a forum for discussing the risks and risk
                      mitigation plans. 9 Our review of these reports and other


9
  EVM measures the value of work accomplished in a given period. Differences in these values
are measured in both cost and schedule variances. Explanations must be provided for variances
of 10 percent and are subject to corrective action plans, baseline change requests, or
termination. The use of EVM satisfies Office of Management and Budget requirements on


                      FinCEN’s BSA IT Modernization Program Met Milestones with                 Page 14
                      Schedule Extensions (OIG-13-036)
                       program-related documentation revealed that BSA IT Mod
                       met milestones and was within budgeted costs. The
                       documentation also showed and explained why certain
                       projects had exceeded planned schedule and budget noting
                       instances where project staffing resources were re-allocated
                       to resolve data quality issues. MITRE officials also stated
                       that to date FinCEN managed the program in an acceptable
                       manner and that they had no significant concerns. Deloitte
                       and MITRE officials agreed that overall the program met
                       milestones and stayed within budgeted costs.

                       We reported in our September 2012 report that FinCEN’s
                       PMO changed its oversight by no longer conducting formal
                       assessments of BSA IT Mod, but was instead providing
                       technical assistance on BSA IT Mod configuration
                       management because that assistance was considered to be
                       a better use of PMO resources. During this audit, FinCEN
                       program management officials told us that the PMO
                       continued to support the configuration management process.
                       We did not identify any negative impact as a result of the
                       PMO’s continued change of focus.

                       Treasury OCIO Oversight

                       In our September 2012 report, we reported that Treasury
                       OCIO officials told us that the office reviewed program
                       documentation, including performance plans, cost
                       submissions, and schedule and performance reporting and
                       that the officials characterized the reviews as being at the
                       “macro-level.” We also reported that the BSA IT Mod
                       Modernization Executive Group and Executive Steering
                       Committee meetings, of which the Treasury CIO is a
                       member, were done through e-mails when a major decision
                       or approval was sought. Looking forward, the Treasury OCIO
                       was working to strengthen the analytical skills of its desk
                       officers. The office also planned to increase the level of
                       interaction with bureau CIOs by instituting quarterly


programs classified as major acquisitions as well IT projects. FinCEN contracted with MITRE to
provide an independent validation to ensure the accuracy of EVM data.


                       FinCEN’s BSA IT Modernization Program Met Milestones with                 Page 15
                       Schedule Extensions (OIG-13-036)
                      investment status meetings rather than annual investment
                      reviews.

                      During this audit, we found no change in the level of
                      Treasury OCIO’s oversight. Treasury OCIO officials told us
                      that they instituted quarterly investment status meetings,
                      but had not yet conducted one for BSA IT Mod. Treasury
                      OCIO, however, continued to monitor FinCEN monthly data
                      submissions to identify potential issues.

                      As we reported in our previous audits of BSA IT Mod, the
                      Treasury CIO is a member of both the BSA IT Mod
                      Modernization Executive Group and Executive Steering
                      Committee, which meets on a quarterly basis or when a
                      major decision or approval is sought. During this audit, the
                      BSA IT Mod Modernization Executive Group and the
                      Executive Steering Committee met in September 2012 to
                      discuss the planned release of FinCEN Query to BSA data
                      users and IRS’s discontinuation of Web-based Currency and
                      Banking Retrieval System (WebCBRS) access to non-IRS
                      users by December 2012. 10 Additional communication
                      among Executive Steering Committee members took place
                      through email correspondence in December 2012. The
                      correspondence discussed how IRS would continue to
                      provide the U.S. Customs and Border Protection with access
                      to WebCBRS and bulk BSA data until April 2013—when a
                      planned agency IT system upgrade was to be completed to
                      allow bulk data to be received.

                      Similar to what we reported in September 2012, Treasury
                      OCIO officials told us that the program was performing well
                      and they were satisfied with the level and quality of BSA IT
                      Mod program data provided by FinCEN. They also told us
                      that FinCEN’s communication with the Treasury OCIO was
                      good and characterized FinCEN program management
                      officials as competent.



10
  WebCBRS is IRS’s data warehouse and information retrieval system that had been used to
collect and store BSA data until FinCEN assumed this role in January 2012.


                      FinCEN’s BSA IT Modernization Program Met Milestones with            Page 16
                      Schedule Extensions (OIG-13-036)
In summary, we believe that the oversight by FinCEN
management and Treasury OCIO during this audit period was
appropriate given the overall positive track record by FinCEN
to date in managing its BSA IT Mod development effort.
That being said, we plan to continue to review program
oversight exercised in our future audits of the program.

                                 ******

We appreciate the cooperation and courtesies extended to
our staff during the audit. If you wish to discuss the report,
you may contact me at (617) 223-8640 or Mark Ossinger,
Audit Manager, at (617) 223-8643. Major contributors to
this report are listed in appendix 5.

/s/
Sharon Torosian
Audit Director




FinCEN’s BSA IT Modernization Program Met Milestones with        Page 17
Schedule Extensions (OIG-13-036)
Appendix 1
Objectives, Scope, and Methodology




This is the third in a series of audits of the Financial Crimes
Enforcement Network's (FinCEN) Bank Secrecy Act (BSA)
Information Technology Modernization Program (BSA IT Mod). Our
objective was to determine if FinCEN is (1) meeting cost, schedule,
and performance benchmarks for this program and (2) providing
appropriate oversight of contractors. Additionally, we assessed
Treasury OCIO (OCIO) oversight of the program. For the third audit,
we determined the status of the program’s cost, schedule, and
performance through December 31, 2012.

To accomplish our objective, we interviewed a variety of officials,
including FinCEN program officials, Department of the Treasury
OCIO officials, an official from the Internal Revenue Service (IRS)
involved with the program, and officials with FinCEN’s contractors.
We also reviewed applicable program documentation and testing
procedures. We performed our fieldwork from October 2012
through February 2013.

At FinCEN, officials we interviewed included the following:

•   The Chief Information Officer (CIO) and the BSA IT Mod
    program manager to obtain an update on BSA IT Mod, a
    perspective on each individual’s knowledge and level of
    involvement, cost and schedule concerns, and overall progress
    of the program.

•   The Chief Technology Officer to obtain his perspective, level of
    involvement, schedule and performance concerns, and overall
    progress of the program. Additionally, we obtained his
    perspective on the project testing conducted and defect
    resolution strategies employed.

•   The Deputy Chief Financial Officer for an update of the cost and
    funding for BSA IT Mod.

•   The Assistant Director and the lead assessor for FinCEN’s
    Project Management Office to discuss their assessments of the
    program.

•   The project managers, project leaders, and contracting officer
    technical representatives responsible for each BSA IT Mod

FinCEN’s BSA IT Modernization Program Met Milestones with      Page 18
Schedule Extensions (OIG-13-036)
Appendix 1
Objectives, Scope, and Methodology




    project to obtain an understanding of their perspective, level of
    involvement, schedule and performance concerns, and overall
    progress of their respective projects.

External to FinCEN, we interviewed the following officials:

•   Deloitte LLP’s managing director and Deloitte’s program
    manager and Analyst for Earned Value Management (EVM) for
    BSA IT Mod to obtain an update on their perspective of BSA IT
    Mod and ascertain the program’s status. These interviews were
    conducted at the contractor’s office in Rosslyn, Virginia.

•   MITRE representatives in McLean, Virginia, to obtain an update
    of MITRE’s role as the federally funded research and
    development contractor, its level of involvement with the
    program, as well as issues, concerns, and other significant
    matters observed. These interviews were conducted at a MITRE
    office in McLean, Virginia.

•   The Treasury CIO, the Treasury OCIO Associate Director of
    Information Technology Capital Planning, and the Treasury
    OCIO desk officer assigned to the BSA IT Mod program for an
    update on their roles in overseeing BSA IT Mod, as well as
    issues, any concerns, and other significant matters.

•   IRS’s Associate CIO, Applications Development Group, to obtain
    an update of her role with BSA IT Mod, coordination between
    IRS and FinCEN, and any concerns regarding the program or
    BSA IT Mod system functionality.

We reviewed FinCEN program-related information, including
management reports, minutes from executive, management, and
technical meetings; planning documentation; program and project
level documentation; and FINCEN presentations to, for example,
Congress, the Office of Management and Budget, Treasury OCIO,
the BSA IT Mod Modernization Executive Group and the Executive
Steering Committee, and FinCEN management.

We reviewed program management briefings and status reports,
internal and external program performance assessment reports, and



FinCEN’s BSA IT Modernization Program Met Milestones with       Page 19
Schedule Extensions (OIG-13-036)
Appendix 1
Objectives, Scope, and Methodology




related documentation to assess program performance status,
risks, and issues.

We interviewed FinCEN and MITRE representatives involved with
BSA IT Mod government acceptance testing and reviewed
testing-related documentation, including testing plans and status
reports. We reviewed certain testing defects and issues identified
during testing, and their resolutions, that were recorded in
FinCEN’s project management and issues tracking system.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




FinCEN’s BSA IT Modernization Program Met Milestones with     Page 20
Schedule Extensions (OIG-13-036)
                       Appendix 2
                       Corrective Actions to Prior Audit Recommendations




                       The status of the two audit recommendations in our prior report on
                       the Bank Secrecy Act (BSA) Information Technology Modernization
                       Program are presented in Table 5 below. Both recommendations
                       are closed. We do not plan to report on the status of these
                       recommendations in our future audits of the program.

Table 5: Corrective Actions on Prior Audit Recommendations
Recommendation                      FinCEN Corrective Actions
In conjunction with IRS, ensure     The Financial Crimes Enforcement Network (FinCEN), in the short
in the short term that IRS’s        term, was to provide Bank Secrecy Act (BSA) data to the Internal
WebCBRS data needs are met          Revenue Service’s (IRS) Web-based Currency and Banking
and; in the long term, assist IRS   Retrieval System (WebCBRS) via the current E-Filing system and
to ensure data requirements are     formats. In support of the longer-term goal, FinCEN was asked to
incorporated into IRS’s             participate on the IRS’s Integrated Project Team to define the IRS
modernization efforts.              BSA data end-state solution. FinCEN’s involvement on the team
                                    included providing the technical specifications for bulk data
                                    distribution, answering questions related to new BSA data
                                    structures, and providing support as requested.

                                    FinCEN closed the short term action on March 28, 2012. In this
                                    regard, the BSA Information Technology (IT) Modernization
                                    Executive Group consisting of the FinCEN Director, Treasury Chief
                                    Information Officer, and IRS Deputy Commissioner for Operations
                                    and Maintenance, approved the mapping back of new Suspicious
                                    Activity Report (SAR) and Currency Transaction Report (CTR) data
                                    from FinCEN’s E-Filing system to WebCBRS in the legacy format.
                                    Subsequently, on March 29, 2012, FinCEN released the new SAR
                                    and CTR reports to filing institutions for submission. We confirmed
                                    during our second audit that FinCEN was able to provide BSA data
                                    from its E-Filing system in the same format IRS used. The long
                                    term action is considered closed by FinCEN with its ongoing
                                    participation on IRS's Integrated Project Team.
Ensure that, for future major       FinCEN responded to the audit recommendation that it did
capital investments, required       not have a future major capital investment planned.
submissions to OMB include full     However, when such a time comes, FinCEN will ensure
life-cycle cost estimates in        that required submissions to Office of Management and
accordance with OMB Circular        Budget (OMB) comply with OMB’s Circular A-11 and that
A–11, Preparation, Submission and   required documentation supporting costs estimates are
Execution of the Budget, and that   maintained. FinCEN closed the action on April 10, 2012.
thorough documentation
supporting estimates is             FinCEN's commitment to ensure future compliance and
maintained.                         maintain supporting documentation met the intent of the
                                    audit recommendation.
Source: Treasury Office of Inspector General (OIG), FinCEN’s BSA IT Modernization Program Is on
Schedule and Within Cost But Requires Continued Attention to Ensure Successful Completion (OIG-12-
047; Mar. 26, 2012). OIG obtained the status of the recommendations through Treasury’s Joint Audit
Management Enterprise System (JAMES), and selectively confirmed the actions taken by FinCEN as
reported in JAMES.



                       FinCEN’s BSA IT Modernization Program Met Milestones with                     Page 21
                       Schedule Extensions (OIG-13-036)
Appendix 3
Additional Background Information on BSA IT Mod


Projects Included in the BSA IT Mod Program

The BSA IT Mod program is made up of multiple projects with
specific components. The projects are summarized below. All
projects were completed as of December 2012 unless otherwise
indicated below.

•   System of Record (SOR) provides data storage and architecture
    for BSA data for 11 years of BSA data.

•   Shared Filing Services provides for validation of BSA data with
    external data sources, such as validation of addresses to U.S.
    Postal Service data.

•   Third Party Data provides the SOR additional BSA data through
    external data sources such as the financial institution
    identification number assigned by the Federal Reserve.

•   Bulk Data Dissemination is used for the distribution of large
    quantities of BSA data to external users.

•   Data Conversion project converted 11 years of BSA data from
    the IRS’s legacy system to the FinCEN’s new SOR.

•   BSA E-Filing is used by BSA filers to submit all required
    electronic filing of BSA forms to FinCEN.

•   FinCEN Query is a tool designed to improve authorized users’
    ability to access and analyze BSA data. The tool will be used by
    FinCEN internal users and by registered external users and
    customers to retrieve and analyze BSA data. The tool is to
    support traditional structured BSA data queries, and provide
    narrative search capabilities and options to coordinate and
    collaborate with users on queries performed.

•   Advanced Analytics provides complex search and retrieval
    functionality for FinCEN internal users to support their
    analytical, law enforcement, and regulatory activities. The tool
    is to provide advanced analytical capabilities such as geospatial,
    statistical analysis, social networking, semantic interchange,
    and visualization capabilities.


FinCEN’s BSA IT Modernization Program Met Milestones with       Page 22
Schedule Extensions (OIG-13-036)
                         Appendix 3
                         Additional Background Information on BSA IT Mod



                         •   Register User Portal/Identity Management/Access Control
                             Management provides the means for common user interface and
                             authentication process through which both internal and external
                             authorized users will gain access to all future BSA IT Mod
                             applications.

                         •   Infrastructure provided the design, development, procurement,
                             and implementation of the development and test environments,
                             storage area network(s), and disaster recovery capabilities
                             required to support the other BSA IT Mod projects.

                         •   Broker Information Exchange provides content management and
                             collaboration support for internal and external users. The 314A
                             component allows law enforcement agencies to submit requests
                             through FinCEN to financial institutions for information about
                             financial accounts and transactions of persons or businesses
                             that may be involved in terrorism or money laundering. The
                             314B component allows financial institutions to share
                             information with one another through FinCEN to identify and
                             report suspicious money laundering or terrorist activities to the
                             federal government. 314A and 314B refer to Section 314 of the
                             USA Patriot Act that requires FinCEN of establish these
                             functionalities. 11 The project is ongoing as of December 2012.

                         •   Alerts provides for an automatic alert to be sent to FinCEN
                             analysts about suspicious activities reported by filers based on
                             pre-defined criteria. The project is ongoing as of December
                             2012.

                         Baseline Change of the Bank Secrecy Act Information Technology
                         Modernization Program (BSA IT Mod)

                         Our first audit found the Financial Crimes Enforcement Network
                         (FinCEN) was reporting that as of May 2011, the 4-year, $120
                         million, BSA IT Mod was on schedule and within an acceptable 10
                         percent cost threshold. At that time, we found the program to be
                         generally within scheduled milestones, though certain projects had
                         exceeded scheduled milestones by 10 percent.



11
     Section 314 of the USA Patriot Act is established under 31 U.S.C. § 5311.


                         FinCEN’s BSA IT Modernization Program Met Milestones with      Page 23
                         Schedule Extensions (OIG-13-036)
Appendix 3
Additional Background Information on BSA IT Mod


In June 2011, FinCEN adjusted selected project milestone schedule
dates and realigned costs to keep the overall program on track. The
baseline change resulted in no increase to overall costs and no
extension to the 4-year program schedule. However, a major
adjustment was made to the Contractor Services budget, which
was increased by approximately $12.7 million dollars or 37
percent. This budget increase was offset by a reduction to the
budgets for Other and Operations and Maintenance costs. Table 1
displays the impact the baseline change had on the major program
elements.

Table 1: BSA IT Mod Program Baseline Change, May 2010 to
June 2011 (in millions)
                                  May 2010             June 2011
Element                           Initial Plan   Baseline Change         Change
Hardware and Software                  $16.8               $16.8             $0
Contractor Services                      34.2               46.9           12.7
Other                                    22.7               19.3           (3.4)
Operations and Maintenance               46.9               37.6           (9.3)
Total                                 $120.6              $120.6             $0
Source: OIG review of FinCEN data. FinCEN staff costs are not included in the
above cost estimates.

Contractor Services was increased to provide additional iterations
to the building and testing of the system of record (SOR) and other
projects that had to be changed because of the changes to the
SOR. Increased data conversion testing was required because of
the volume and complexity of the data and business rules, and to
ensure that the integration, system performance, and data integrity
was correct.

BSA IT Mod Budget Reallocation

Since BSA IT Mod baseline change in June 2011, the budget for
the major program elements have been reallocated with no increase
to BSA IT Mod’s total planned cost. Table 2 displays the budget
changes.




FinCEN’s BSA IT Modernization Program Met Milestones with                       Page 24
Schedule Extensions (OIG-13-036)
                       Appendix 3
                       Additional Background Information on BSA IT Mod




                      Table 2: BSA IT Mod Program Budget Change, June 2011 to October 2012
                      (in millions)
                                                             June 2011           October 2012
                       Element                          Baseline Change         Current Budget        Change
                       Hardware and Software                      $16.8                  $16.8             $0
                       Contractor Services                         46.9                   50.5            3.6
                       Other                                       19.3                   17.0          (2.3)
                       Operations and Maintenance                  37.6                   36.3          (1.3)
                       Total                                     $120.6                 $120.6             $0
                       Source: OIG review of FinCEN data. FTEs are not included in the above cost estimates.

                       The allocation for contractor services was increased $3.6 million to
                       address additional costs for work related to the following projects:
                       (1) FinCEN Query, (2) release 2 of the System of Record,
                       (3) Shared Filing Services, and (3) Third-Party Data and Bulk Data
                       Dissemination.

                       Contractors Engaged by FinCEN

                       In March 2008, FinCEN awarded a 5-year indefinite delivery,
                       indefinite quantity (IDIQ) contract to BearingPoint, Inc., to support
                       a full range of information technology services, custom
                       applications, maintenance support, and infrastructure support
                       necessary to implement the FinCEN IT operational objectives.
                       Numerous task orders have been issued against the contract
                       including those for the BSA IT Mod program. 12 The contract was
                       subsequently transferred to Deloitte Consulting, LLP (Deloitte). 13
                       The contract ceiling is a maximum of $144 million and a minimum
                       of $1 million over the contract’s 5-year life. FinCEN also contracted
                       with MITRE Corporation (MITRE) at a cost of approximately $1.5
                       million to provide management guidance, coordination, and




12
   An IDIQ contract provides for an indefinite quantity of services during a fixed period of time. This
type of contract is used when it cannot be predetermined, above a specified minimum, the precise
quantities of supplies or services that the government will require during the contract period. IDIQ
contracts are most often used for service contracts and architect-engineering services. An IDIQ contract
is flexible, especially when not all the requirements are known at the start of a contract and is
conducive to a modular approach, which would be one with phases or milestones.
13
   The IDIQ contract was transferred from BearingPoint, Inc. to Deloitte on October 1, 2009 after
Deloitte purchased substantially all of the assets of Bearing Point, Inc., Public Service Division.


                       FinCEN’s BSA IT Modernization Program Met Milestones with                       Page 25
                       Schedule Extensions (OIG-13-036)
                      Appendix 3
                      Additional Background Information on BSA IT Mod


                      evaluation support for BSA IT Mod. 14 MITRE is a subject matter
                      expert on program and project management, and BSA IT Mod
                      business capabilities.

                      FinCEN is using the Acquisitions Services Directorate of the U.S.
                      Department of the Interior as the contract office to administer the
                      contract. FinCEN chose this office because of its prior experience
                      handling large, complex procurements.




14
  MITRE is a not-for-profit organization chartered to work in the public interest with expertise in
systems engineering, information technology, operational concepts, and enterprise modernization.
Among other things, it manages federally funded research and development centers, including one for
IRS and U.S. Department of Veterans Affairs (the Center for Enterprise Modernization). Under
Treasury’s existing contract with MITRE, Treasury and its bureaus, with permission of the IRS sponsor,
may contract for support in the following task areas: strategic management, technical management,
program and project management, procurement, and evaluation and audit to facilitate the modernization
of systems and their business and technical operation.


                      FinCEN’s BSA IT Modernization Program Met Milestones with                Page 26
                      Schedule Extensions (OIG-13-036)
Appendix 4
Management Response




FinCEN’s BSA IT Modernization Program Met Milestones with   Page 27
Schedule Extensions (OIG-13-036)
Appendix 4
Management Response




FinCEN’s BSA IT Modernization Program Met Milestones with   Page 28
Schedule Extensions (OIG-13-036)
Appendix 5
Major Contributors to this Report




Boston Office

Mark Ossinger, Audit Manager
Kenneth O’Loughlin, Auditor-in-Charge
Richard Wood, Auditor

Washington, D.C.

Robert Kohn, Referencer




FinCEN’s BSA IT Modernization Program Met Milestones with   Page 29
Schedule Extensions (OIG-13-036)
Appendix 6
Report Distribution




Department of the Treasury

   Deputy Secretary
   Under Secretary for Terrorism and Financial Intelligence
   Chief Information Officer
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Financial Crimes Enforcement Network

   Director

Office of Management and Budget

   OIG Budget Examiner

U.S. Senate

   Chairman and Ranking Member
   Committee on Appropriations

   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Appropriations

   Chairman and Ranking Member
   Subcommittee on Financial Services and General Government
   Committee on Appropriations




FinCEN’s BSA IT Modernization Program Met Milestones with     Page 30
Schedule Extensions (OIG-13-036)
